                                EXPORT-IMPORT BANK
 OSVALDO L. GRATACÓS            of the UNITED STATES
 INSPECTOR GENERAL

FOR IMMEDIATE RELEASE                                                      July 29, 2013
Media Contact: (202-565-3908)


                 MEXICAN RANCH OWNER SENTENCED FOR
             SCHEME TO DEFRAUD THE U.S. EXPORT-IMPORT BANK

WASHINGTON, D.C. – The Office of Inspector General (OIG) for the Export-Import
Bank of the United States (Ex-Im Bank) announced that on July 29, 2013, Judge Philip
R. Martinez, U.S. District Court in the Western District of Texas, El Paso Division,
sentenced Osvaldo Kuchle-Lopez for his role in a scheme to defraud Ex-Im Bank of
approximately $3.21 million.
Federal law enforcement agents arrested Kuchle, a ranch owner in Mexico, on February
17, 2010 as he crossed the border into the United States. Kuchle subsequently pleaded
guilty on October 8, 2010, to one count of conspiracy in connection with a scheme to
defraud Ex-Im Bank. In addition to a term of six-months of time served and 24 months
supervised release, Kuchle was ordered to pay a $10,000 fine. Since his arrest in 2010,
Kuchle has paid $2.9 million in restitution to Ex-Im Bank.
According to court documents, Kuchle admitted that between 2003 and 2004, he acted
as the buyer in a fraudulent Ex-Im Bank insured loan. Kuchle admitted that he and
others entered into a conspiracy and scheme to defraud a lending bank and Ex-Im Bank
to obtain and misappropriate loan proceeds for personal use rather than to purchase
and export U.S. manufactured products into Mexico. Kuchle admitted that he and
others conspired to make false statements about the purchase of U.S. manufactured
equipment, supplied false invoices, and falsified other records to fraudulently represent
to the lending bank and Ex-Im Bank the purchase and export of U.S. goods to various
buyers in Mexico.
The case was prosecuted by the United States Attorney’s Office for the Western District
of Texas, El Paso Division. The case was investigated by the Ex-Im Bank Office of
Inspector General, Federal Bureau of Investigations in El Paso, and Homeland Security
Investigations in El Paso.
Ex-Im Bank is an independent federal agency that helps create and maintain U.S. jobs
by filling gaps in private export financing at no cost to American taxpayers. Ex-Im Bank
provides a variety of financing mechanisms, including working capital guarantees,
export-credit insurance, and financing to help foreign buyers purchase U.S. goods and
services.
Ex-Im Bank OIG is an independent agency within Ex-Im Bank. The OIG receives and
investigates complaints and information concerning violations of law, rules or



             811 Vermont Avenue, N.W. Washington, D.C. 20571
regulations, fraud against Ex-Im Bank, mismanagement, waste of funds, and abuse of
authority connected with Ex-Im Bank's programs and operations.
Additional information about the OIG can be found at www.exim.gov/oig. Complaints
and reports of waste, fraud, and abuse related to Ex-Im Bank programs and operations
can be reported to the OIG hotline at 888-OIG-EXIM (888-644-3946) or via email at
IGhotline@exim.gov.
                                        ###
